                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00026-233




      Community Based Outpatient 

             Clinic Reviews 

                    at 

     Jesse Brown VA Medical Center 

              Chicago, IL 





July 15, 2013

                      Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

  To Report Suspected Wrongdoing in VA Programs and Operations
                      Telephone: 1-800-488-8244
                      E-Mail: vaoighotline@va.gov
   (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                                  CBOC Reviews at Jesse Brown VAMC



                                           Glossary
                        C&P      credentialing and privileging
                        CBOC     community based outpatient clinic
                        CDC      Centers for Disease Control and Prevention
                        EHR      electronic health record
                        EOC      environment of care
                        FPPE     Focused Professional Practice Evaluation
                        FY       fiscal year
                        LIP      licensed independent practitioner
                        MEC      medical executive committee
                        MH       mental health
                        MSDS     material safety data sheets
                        NCP      National Center for Health Promotion and
                                 Disease Prevention
                        NC       noncompliant
                        OIG      Office of Inspector General
                        OPPE     Ongoing Professional Practice Evaluation
                        VAMC     VA Medical Center
                        VHA      Veterans Health Administration
                        VISN     Veterans Integrated Service Network
                        WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                                  CBOC Reviews at Jesse Brown VAMC



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics .............................................................................................              7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 12 Director Comments .............................................................................                     12

  B. Jesse Brown VAMC Acting Director Comments ................................................                                  13

  C. OIG Contact and Staff Acknowledgments .........................................................                             17

  D. Report Distribution .............................................................................................           18





VA OIG Office of Healthcare Inspections
                                                             CBOC Reviews at Jesse Brown VAMC



                                Executive Summary
Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during the week of April 2, 2013.

The review covered the following topic areas:

	   WH

	   Vaccinations

	   C&P

	   EOC

	   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs (see Table 1).

     VISN       Facility                   CBOC Name              Location
                                           Chicago Heights        Chicago Heights, IL
       12       Jesse Brown VAMC           Chicago HCS            Chicago, IL
                                           (Lakeside)
                                     Table 1. Sites Inspected

Review Results: We made recommendations in four review areas.

Recommendations:       The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

	 Ensure that the ordering provider or surrogate is notified of abnormal cervical cancer
   screening results within the allotted timeframe and that notification is documented in
   the EHR.

	 Ensure that patients with abnormal cervical cancer screening results are notified of
   results within the defined timeframe and that notification is documented in the EHR.

	 Ensure that clinicians administer pneumococcal vaccinations when indicated.

	 Ensure that clinicians document all required tetanus vaccination administration
   elements and that compliance is monitored.



VA OIG Office of Healthcare Inspections                                                    i
                                                      CBOC Reviews at Jesse Brown VAMC


	 Ensure that the service chief’s documentation in VetPro reflects documents
   reviewed and the rationale for re-privileging providers at the Chicago Heights and
   Lakeside CBOCs.

	 Ensure that the MEC grants privileges consistent with the services provided at the
   Chicago Heights and Lakeside CBOCs.

	 Ensure that MSDS are readily available to staff at the Lakeside CBOC.

Comments
The VISN and Acting Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A
and B, pages 12–16, for full text of the Directors’ comments.) We will follow up on the
planned actions until they are completed.




                                                  JOHN D. DAIGH, JR., M.D.
                                                 Assistant Inspector General for
                                                      Healthcare Inspections




VA OIG Office of Healthcare Inspections                                              ii
                                                                      CBOC Reviews at Jesse Brown VAMC



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                                          CBOC Reviews at Jesse Brown VAMC


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Two CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                 2
                                                                                                                             CBOC Reviews at Jesse Brown VAMC



                                                                    CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facilities’ oversight.5 Table 2 below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.


    VISN              Parent Facility                    CBOC Name                Locality6           Uniques FY 20127 Visits FY 20128               CBOC Size9
                                                      Adams Benjamin Jr.           Urban                   13,797          120,156                   Very Large
                                                       (Crown Point, IN)
                                                        Chicago Heights            Urban                     2,250                 6,346               Mid-Size
                                                     (Chicago Heights, IL)
     12            Jesse Brown VAMC
                                                    Chicago HCS (Lakeside)         Urban                     4,381                17,716               Mid-Size
                                                         (Chicago, IL)
                                                      Woodlawn (Beverly)           Urban                     2,357                 7,347               Mid-Size
                                                         (Chicago, IL)
                                                                       Table 2. Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov8

8
  http://vssc.med.va.gov

9
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,

September 11, 2008, the size of the CBOC facility is categorized as very large (>10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (<1,500). 



VA OIG Office of Healthcare Inspections                                                                                                                           3
                                                                      CBOC Reviews at Jesse Brown VAMC



                    WH and Vaccination EHR Reviews 

                     Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review elements marked as noncompliant needed
improvement. Details regarding the findings follow the table.

            NC                                        Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
             X                 The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
             X                 Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                Table 3. WH

There were 34 patients who received a cervical cancer screening at the
Jesse Brown VAMC’s CBOCs.

Provider Notification. VHA requires that abnormal cervical cancer screening results
must be reported to the ordering provider or surrogate within 5 business days of the
report being issued and that the notification is documented in the EHR.13 We reviewed
EHRs of seven patients and did not find documentation in four records that the
interpreting physician notified the ordering provider or surrogate of the abnormal
cervical cancer screening results within 5 business days.



10
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/20213): http://www.who.int/reproductivehealth/topics/cancers/en/index.html

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 

13
   VHA Handbook 1330.01.
 


VA OIG Office of Healthcare Inspections                                                                      4
                                                                       CBOC Reviews at Jesse Brown VAMC


Patient Notification of Abnormal Cervical Cancer Screening Results. We reviewed the
EHRs of seven patients who had abnormal cervical cancer screening results and
determined that four patients were not notified within the required 5 business days from
the date the pathology report became available.

Recommendations

1. We recommended that a process is established to ensure that the ordering provider
or surrogate is notified of abnormal cervical cancer screening results within the allotted
timeframe and that notification is documented in the EHR.

2. We recommended that managers ensure that patients with abnormal cervical cancer
screening results are notified of results within the defined timeframe and that notification
is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of
vaccinations.14 The NCP provides best practices guidance on the administration of
vaccinations for veterans. The CDC states that although vaccine-preventable disease
levels are at or near record lows, many adults are under-immunized, missing
opportunities to protect themselves against diseases such as tetanus and
pneumococcal.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
that have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review elements
marked as noncompliant needed improvement. Details regarding the findings follow the
table.

          NC                                      Areas Reviewed
                      Staff screened patients for the tetanus vaccination.
                      Staff administered the tetanus vaccination when indicated.
                      Staff screened patients for the pneumococcal vaccination.
           X          Staff administered the pneumococcal vaccination when indicated.
           X          Staff properly documented vaccine administration.
                      Managers developed a prioritization plan for the potential occurrence of
                      vaccine shortages.
                                             Table 4. Vaccinations


14
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.


VA OIG Office of Healthcare Inspections                                                                      5
                                                                         CBOC Reviews at Jesse Brown VAMC


Pneumococcal Vaccination Administration for Patients with Pre-Existing Conditions.
The CDC recommends that at the age of 65, individuals that have never had a
pneumococcal vaccination should receive one.15 For individuals 65 and older who have
received a prior pneumococcal vaccination, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of three patients with
pre-existing conditions who received their first vaccine prior to the age of 65. We did
not find documentation in any of the EHRs indicating that their second vaccinations had
been administered.

Documentation of Tetanus Vaccination. Federal Law requires that documentation for
administered vaccinations include specific elements, such as the vaccine manufacturer
and lot number of the vaccine used.16 We reviewed the EHRs of 28 patients who
received a tetanus vaccine administration at the parent facility or its associated CBOCs
and did not find documentation of all the required information related to tetanus vaccine
administration in any of the EHRs.

Recommendations

3. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.

4. We recommended that managers ensure that clinicians document all required
tetanus vaccination administration elements and that compliance is monitored.




15
     Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/
16
     Childhood Vaccine Injury Act of 1986 (PL 99 660) subpart C, November 16, 2010.


VA OIG Office of Healthcare Inspections                                                                6
                                                                    CBOC Reviews at Jesse Brown VAMC



                                 Onsite Reviews 

                          Results and Recommendations 

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOCs (see Table 5).

                                             Chicago Heights                      Lakeside
     VISN                                           12                                12

     Parent Facility                        Jesse Brown VAMC                 Jesse Brown VAMC

     Types of Providers               Licensed Clinical Social Worker   Licensed Clinical Social Worker
                                             Nurse Practitioner                Nurse Practitioner
                                          Primary Care Physician            Primary Care Physician
     Number of MH Uniques,                          315                               109
     FY 2012
     Number of MH Visits,                          1,003                             401
     FY 2012
     MH Services Onsite                             Yes                              Yes

     Specialty Care Services                       None                             None
     Onsite
     Ancillary Services Provided            Electrocardiogram                 Electrocardiogram
     Onsite                                     Laboratory                       Laboratory
     Tele-Health Services                Care Coordination Home            Care Coordination Home
                                                Telehealth                        Telehealth
                                                 MOVE17                          Pain Clinic
                                                Pain Clinic                    Retinal Imaging
                                             Retinal Imaging
                                         Table 5. Characteristics




17
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                               7
                                                            CBOC Reviews at Jesse Brown VAMC


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.18 Table 6 shows the areas reviewed for this topic. The CBOCs identified as
noncompliant needed improvement. Details regarding the findings follow the table.

           NC                                         Areas Reviewed
                         Each provider’s license was unrestricted.
                                              New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                           FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                 Privileges and Scopes of Practice
 Chicago Heights         The Service Chief, Credentialing Board, and/or medical staff’s
    Lakeside             Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
 Chicago Heights         Privileges granted to providers were setting, service, and provider
    Lakeside             specific.




18
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                    8
                                                           CBOC Reviews at Jesse Brown VAMC


           NC                              Areas Reviewed (continued)
                         The determination to continue current privileges was based in part
                         on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

Documentation of Re-Privileging Decisions. According to VHA, the list of documents
reviewed and the rationale for conclusions reached by the service chief must be
documented.19 We found that all three Chicago Heights and three of four Lakeside LIPs
did not have the service chief’s documentation in VetPro that reflected the documents
utilized to arrive at the decision to grant clinical privileges to the providers.

Clinical Privileges. VHA requires that privileges granted be facility-specific and based
on the services that are provided within the health care facility.20 The MEC granted
privileges to all three Chicago Heights and three of four Lakeside LIPs for services that
were not provided at the CBOCs. The LIPs were granted privileges for admitting
patients.

Recommendations

5. We recommended that the service chief’s documentation in VetPro reflects
documents reviewed and the rationale for re-privileging providers at the Chicago
Heights and Lakeside CBOCs.

6. We recommended that the MEC grants privileges consistent with the services
provided at the Chicago Heights and Lakeside CBOCs.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOC identified as noncompliant needed improvement. Details regarding the finding
follow the table.

          NC                                     Areas Reviewed
                      The CBOC was Americans with Disabilities Act-compliant, including:
                      parking, ramps, door widths, door hardware, restrooms, and
                      counters.
                      The CBOC was well maintained (e.g., ceiling tiles clean and in good
                      repair, walls without holes, etc.).
                      The CBOC was clean (walls, floors, and equipment are clean).
       Lakeside       Material safety data sheets were readily available to staff.

19
     VHA Handbook 1100.19.
20
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                   9
                                                                          CBOC Reviews at Jesse Brown VAMC


           NC                                Areas Reviewed (continued)
                         The patient care area was safe.
                         Access to fire alarms and fire extinguishers was unobstructed.
                         Fire extinguishers were visually inspected monthly.
                         Exit signs were visible from any direction.
                         There was evidence of fire drills occurring at least annually.
                         Fire extinguishers were easily identifiable.
                         There was evidence of an annual fire and safety inspection.
                         There was an alarm system or panic button installed in high-risk
                         areas as identified by the vulnerability risk assessment.
                         The CBOC had a process to identify expired medications.
                         Medications were secured from unauthorized access.
                         Privacy was maintained.
                         Patients’ personally identifiable information was secured and
                         protected.
                         Laboratory specimens were transported securely to prevent
                         unauthorized access.
                         Staff used two patient identifiers for blood drawing procedures.
                         Information Technology security rules were adhered to.
                         There was alcohol hand wash or a soap dispenser and sink available
                         in each examination room.
                         Sharps containers were less than 3/4 full.
                         Safety needle devices were available for staff use (e.g., lancets,
                         injection needles, phlebotomy needles).
                         The CBOC was included in facility-wide EOC activities.
                         Medical equipment checked according to policy (biomed tags as
                         applicable).
                                                   Table 7. EOC

MSDS. The Occupational Safety and Health Administration21 require that facilities
maintain current MSDS for each hazardous chemical used in the clinical area and that
this information is available to staff in their work area. We found MSDS were not readily
available to staff at the Lakeside CBOC.

Recommendation

7. We recommended that managers ensure that MSDS are readily available to staff at
the Lakeside CBOC.




21
     Occupational Safety and Health Administration 1910.1200(g)(8)(10).


VA OIG Office of Healthcare Inspections                                                                10
                                                           CBOC Reviews at Jesse Brown VAMC


Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.22 Table 8 shows the areas
reviewed for this topic.

           NC                                     Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.
                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
                       There was a local MH emergency management plan for this CBOC.
                       The staff articulated the procedural steps of the MH emergency
                       plan.
                                 Table 8. Emergency Management

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.




22
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                  11
                                                         CBOC Reviews at Jesse Brown VAMC
                                                                                Appendix A
                           VISN 12 Director Comments


               Department of
               Veterans Affairs                             Memorandum


       Date:           June 7, 2013

       From:           Director, VISN 12 (10N12)

       Subject:        CBOC Reviews at Jesse Brown VAMC

       To:             Director, Chicago Healthcare Inspections Division (54CH)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

     1. Attached please find the CBOC Review draft response from	 Jesse
        Brown VAMC.
     2. I have reviewed the draft report for the Jesse Brown VAMC and concur
        with the findings and recommendations.
     3. I appreciate	 the Office of Inspector General’s efforts to ensure high
        quality of care to veterans at the Jesse Brown VAMC.




       Jeffrey A. Murawsky, M.D.




VA OIG Office of Healthcare Inspections                                                12
                                                          CBOC Reviews at Jesse Brown VAMC
                                                                                 Appendix B
             Jesse Brown VAMC Acting Director Comments



                Department of
                Veterans Affairs                             Memorandum


       Date:            June 7, 2013

       From:            Acting Director, Jesse Brown VAMC (537/00)

       Subject:         CBOC Reviews at Jesse Brown VAMC

       To:              Director, VISN 12 (10N12)

       1. I would like	 to express my appreciation to the Office of Inspector
          General (OIG) survey Team for their professional and comprehensive
          CBOC review conducted April 2-4, 2013. The results of their review
          validate the efforts of this Medical Center in providing high quality care
          to our nation’s veterans.
       2. I have reviewed the draft report for the Jesse Brown VA Medical
          Center and concur with the findings and recommendations.
       3. I appreciate the opportunity for this review as it provides for a continual
          process to improve the care to our veterans.



         (original signed by:)
       Joan M. Ricard, FACHE




VA OIG Office of Healthcare Inspections                                                 13
                                                          CBOC Reviews at Jesse Brown VAMC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that a process is established to ensure that the ordering provider
or surrogate is notified of abnormal cervical cancer screening results within the allotted
timeframe and that notification is documented in the EHR.

Concur

Target date for completion: April 13, 2013

A SOP was finalized in February 2013 and all Women’s Health providers and Women’s
Health program support staff were trained in March 2013 on the established process of
reporting abnormal cervical cancer screening results to the ordering provider or
surrogate and EHR documentation. An excel data base has been established to ensure
that the ordering provider or surrogate receive timely notification of abnormal cervical
cancer screening results. EHR monitoring will be conducted to ensure that 90%
compliance of provider notification of abnormal labs is sustained.

2. We recommended that managers ensure that patients with abnormal cervical cancer
screening results are notified of results within the defined timeframe and that notification
is documented in the EHR.

Concur

Target date for completion: August 1, 2013

A SOP was finalized in February 2013 and all Women’s Health providers and Women’s
Health program support staff were trained in March 2013 on the established process of
reporting abnormal cervical cancer screening results to the ordering provider or
surrogate and EHR documentation. An excel data base has been established to ensure
that the ordering provider or surrogate receive timely notification of abnormal cervical
cancer screening results. Monthly EHR reviews are performed to validate that patients
are notified of abnormal results within the defined timeframe and notification is
documented in the EHR. This process will be monitored until 90% compliance is
sustained.

3. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.

Concur

Target date for completion: August 1, 2013


VA OIG Office of Healthcare Inspections                                                   14
                                                         CBOC Reviews at Jesse Brown VAMC


CBOC nursing staff was educated in April 2013 on the Center for Disease Control
(CDC) recommendations on pneumococcal vaccination administration for patients with
pre-existing conditions. Random medical record audits will be conducted to ensure
compliance of administration of pneumococcal vaccine using the CDC
recommendations until 90% compliance is sustained.

4. We recommended that managers ensure that clinicians document all required
tetanus vaccination administration elements and that compliance is monitored.

Concur

Target date for completion: August 1, 2013

In January 2013, additions were made to the vaccine administration template in CPRS
to include areas for clinicians to document the vaccine Information Sheet (VIS) edition
date, manufacturer, and lot number in order to meet all of the required information
related to tetanus vaccine administration. CBOC staff education was completed and the
template was implemented on March 29, 2013. Medical Record reviews will be
conducted to ensure 90% compliance is sustained.

5. We recommended that the service chief’s documentation in VetPro reflects
documents reviewed and the rationale for re-privileging providers at the Chicago
Heights and Lakeside CBOCs.

Concur

Target date for completion: July 3, 2013

In May 2013, all service chiefs responsible for provider privileging and the credentialing
coordinator were trained to include the type of documents reviewed and the rationale for
privileging providers in their re-privileging documentation. This process will be reflected
in the PSB meeting minutes. Vet Pro entries will be reviewed to assure 90%
compliance with required documentation.

6. We recommended that the MEC grants privileges consistent with the services
provided at the Chicago Heights and Lakeside CBOCs.

Concur

Target date for completion: August 1, 2013

The updated privileging form now defines site-specific privileges. The form will be
presented to the PSB for approval during the July 2013 meeting. All CBOC providers’
privileging forms will be revised to reflect the site-specific privileges.

7. We recommended that managers ensure that MSDS are readily available to staff at
the Lakeside CBOC.



VA OIG Office of Healthcare Inspections                                                 15
                                                     CBOC Reviews at Jesse Brown VAMC


Concur

Target date for completion: August 1, 2013

The MSDS inventory is being updated for the Lakeside CBOC. CBOC staff training was
completed on MSDS online access. Monitoring will reflect that all Lakeside CBOC staff
will be able to access MSDS information during weekly EOC rounds with a target of
90% compliance.




VA OIG Office of Healthcare Inspections                                           16
                                                          CBOC Reviews at Jesse Brown VAMC
                                                                                 Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  La Nora Hernandez, MSN-Edu, RN, Team Leader
Contributors            Wachita Haywood, RN
Other                   Debra Boyd-Seale, PhD
Contributors            Judy Brown, Program Support Assistant
                        Shirley Carlile, BA
                        Lin Clegg, PhD
                        Sheila Cooley, MSN, RN
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Laura Spottiswood, MPH
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  17
                                                      CBOC Reviews at Jesse Brown VAMC
                                                                             Appendix D

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 12 (10N12)
Acting Director, Jesse Brown VAMC (537/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Daniel Coats, Joe Donnelly, Richard J. Durbin, Mark Kirk
U.S. House of Representatives: Danny K. Davis, Robin Kelly, Bobby L. Rush,
 Peter J. Visclosky


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                              18
